OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/DOMINICAN
REPUBLIC’S EFFECTIVE
SCHOOLS PROGRAM
AUDIT REPORT NO.1-517-14-001-P
OCTOBER 7, 2013




SAN SALVADOR, EL SALVADOR

Office of Inspector General


October 7, 2013

MEMORANDUM

TO:      	         USAID/Dominican Republic Mission Director, Alexandria Panehal

FROM: 	            Regional Inspector General/San Salvador, Jon Chasson /s/

SUBJECT:	          Audit of USAID/Dominican Republic’s Effective Schools Program
                   (Report No. 1-517-14-001-P)

This memorandum transmits our final report on the subject audit. In finalizing the audit report,
we considered your comments on the draft report and included them in their entirety in
Appendix II of this report.

This report includes ten recommendations to help USAID/Dominican Republic improve the
Effective Schools Program. Based on your written comments in response to the draft report,
final action was taken for three recommendations and management decisions have been
reached on seven.

I want to thank you and your staff for the cooperation and assistance extended to us during this
audit.




U.S. Agency for International Development
Embajada Americana
Urb. y Blvd Santa Elena
Antiguo Cuscatlan, Depto. La Libertad
San Salvador, El Salvador
http://oig.usaid.gov
CONTENTS

Summary of Results ................................................................................................................... 1 


Audit Findings............................................................................................................................. 3 


     Program Monitoring Was Weak .............................................................................................. 3 


     Documents Related to Program Were Missing or Outdated ................................................... 6 


     Program Did Not Publicize Its Success Stories ...................................................................... 8 


Evaluation of Management Comments................................................................................... 10 


Appendix I—Scope and Methodology .................................................................................... 12 


Appendix II—Management Comments ................................................................................... 14 





Abbreviations

The following abbreviations appear in this report:

ADS             Automated Directives System
AOR             agreement officer’s representative
DQA             data quality assessment
FY              fiscal year
M&E             monitoring and evaluation
PMP             performance management plan
PPR             performance plan and report
PUCMM           Pontificia Universidad Catolica Madre y Maestra
RIG             Regional Inspector General
TraiNet         Training Results and Information Network
SUMMARY OF RESULTS

In 2010 the United Nations Educational, Scientific and Cultural Organization and the World
Forum assessed the quality of education in the Dominican Republic and ranked its primary
education as the worst in the Central American and Caribbean region. Despite high enrollment,
students were not learning at the expected rate and received low scores on achievement tests
in fundamental literacy and mathematics.

To enhance the quality of education in the country, USAID/Dominican Republic implemented
the Effective Schools Program. It focuses on improving the quality of primary education (grades
one through four) and has three components:

	 Education management to strengthen school governance practices.

	 In-service training and curriculum development provided to existing teachers in participating
   elementary schools to achieve significant improvements in reading, writing, and math.

	 Monitoring and evaluation (M&E) to provide valid, reliable feedback about the program that
   supports changes, if warranted.

The program is implemented through a cooperative agreement to Pontificia Universidad
Catolica Madre y Maestra (PUCMM). It started on October 1, 2009, and ends on September 30,
2014, with an estimated total cost of $16.7 million. As of March 31, 2013, USAID/Dominican
Republic had obligated $11.4 million and disbursed $9.7 million for program activities.

The Regional Inspector General/San Salvador (RIG/San Salvador) conducted this audit as part
of its fiscal year (FY) 2013 audit plan to determine whether USAID/Dominican Republic was
achieving its main goal of significantly contributing to the improvement of the quality of primary
school education.

The program had provided significant assistance to primary school education through school
materials and activities such as training classes, teacher mentoring, and workshops. Feedback
from teachers and ministry officials was positive overall; teachers said training was helpful and
practical. During 2012, the mission reported that it had trained 4,729 teachers, surpassing the
target of 3,600.

However, the program might have been more successful if the various components were
integrated better. The grant agreement with PUCMM stated that the components would be
integrated to bring a comprehensive approach to affect the formal education system as a whole.
Yet the November 2012 midterm evaluation observed that components operated autonomously,
and recommended that PUCMM “seek opportunities to collaborate across components at the
project and at the school level,” which would have made the program more efficient.

Despite this recommendation, PUCMM continued to manage the components as if each one
was a separate project. The math and Spanish language portions of the second component
worked independently, using their own groups of M&E specialists and mentors. PUCMM had
different teams for each component and managed separate budgets. The teams rarely met or
coordinated activities with one another. They did not track or manage results in an integrated
manner and had their own set of indicators. Since the program ends on September 30, 2014,

                                                                                                1
the program cannot be readjusted at this point to allow the recommended integration.

The audit also identified the following problems.

	 Monitoring was weak (page 3). The program and mission performance management plans
   (PMPs) were outdated and incomplete, reported data were not reliable, and the mission did
   not perform site visits regularly.

	 Documents related to the program (PMPs, sustainability plan, branding and marking plan,
   and agreement modifications) were missing or outdated (page 6).

	 The program did not publicize its success stories (page 8). Although the agreement required
   PUCMM to include success stories and lessons learned in its annual reports, PUCMM did
   not document these adequately.

To improve the effectiveness of the program and mission operations, the audit recommends that
USAID/Dominican Republic:

1. 	 Work with its implementing partner to revise the program’s PMP to include (1) definitions for
     each indicator including the data source and collection methodology, (2) results
     disaggregated by gender, and (3) updated targets and actual results (page 6).

2. 	 Update the education team’s PMP, and confirm that it agrees with indicators being reported
     in the program PMP and the performance plan and report (PPR) (page 6).

3. 	 Work with its implementing partner to implement an improved record-keeping system that
     supports each reported result (page 6).

4. 	 Implement a site visit plan that includes frequent visits and data verification (page 6).

5. 	Verify in writing that all necessary training information is entered into USAID’s Training
    Results and Information Network (TraiNet) (page 6).

6. 	 Provide and document training to its staff on how to report results in TraiNet (page 6).

7. 	 Work with its implementing partner to implement a sustainability plan, and document the
     experiences and lessons learned during the program as required by the agreement
     (page 8).

8. 	 Work with its implementing partner to update its branding and marking plan, including the
     use of banners or posters with the USAID logo during training sessions (page 8).

9. 	Modify its agreement to include changes to the program’s activity description and add
    required standard provisions (page 8).

10. Work with its implementing partner to document success stories in its FY 2013 annual report
    (page 9).

Detailed findings appear in the following section. Appendix I describes the audit scope and
methodology. The mission’s comments are in Appendix ll, and our evaluation of the mission’s
comments are on page 10.

                                                                                                 2
AUDIT FINDINGS
Program Monitoring Was Weak
According to USAID’s Automated Directives System (ADS) 202.3.6, monitoring the quality and
timeliness of outputs produced by implementing partners is a major task of USAID officials.
Also, according to ADS 200.3.5.5, missions should track whether projects achieve intended
results by (1) planning how they will systematically monitor and evaluate progress, (2) regularly
monitoring the achievements of programs and projects, and (3) collecting and analyzing
performance information to track progress toward planned outcomes.

ADS 203.3.11.3 requires missions to conduct data quality assessment (DQAs) “to ensure that
decision makers are fully aware of data strengths and weaknesses and the extent to which data
can be trusted when making management decisions and reporting.” ADS 203.3.2.1 states that
DQAs should confirm that the data reported to Washington meet USAID data quality standards
and identify data quality issues and limitations.

The agreement stated that the program’s PMP “must include indicators, targets, data sources
and collection methods, baseline information, benchmarks and schedule for periodic
evaluations. All data collected must be disaggregated by gender, if applicable.”

ADS 253.3 states that all USAID units involved in funding or managing participant training must
“design, implement, and track the training or program event for results and impact,” and “report
on their Participant Training activities as part of their broader performance measurement
(monitoring), evaluation, and reporting requirements.”

ADS 203.3.2.1 states that part of performance monitoring responsibilities includes activity-level
oversight like site visits in accordance with USAID policy. Furthermore, the mission issued an
order in July 2010 stating that the education team should perform and document site visits
regularly that include an assessment of progress and verification and validation of reported
results and data.

However, USAID/Dominican Republic’s monitoring and oversight efforts did not ensure that all
of these requirements were met, as discussed below.

PMPs Were Outdated and Incomplete. PUCMM did not update the PMP to include current
targets and actual results. As of April 2013, PUCMM had not reported some targets and results
for 2012, and some targets for 2013 were missing. In addition, the PMP did not disaggregate
results by gender as required, and did not agree with the targets included in the agreement as
noted in the table on the next page.




                                                                                               3
                     Inconsistent Program Targets (Percent) (Not Audited)
Result                               Agreement   2009 PMP    2009 PMP     2011 PMP    2011 PMP
                                       target      target     results       target     results
The reading and writing literacy         80          60         65            65         65
competencies of the trained
teachers and technicians are
strengthened.
The pedagogical and                     80          50           60          60          70
methodological strategies of the
teachers trained are consistent
with the curriculum proposed by
the Ministry of Education and are
applied in the classrooms for the
strengthening of student learning.

Furthermore, although the program intended to contribute significantly to improving education in
grades one through four, the PMP did not include an indicator to measure the students’
improvement.

Finally, USAID/Dominican Republic’s PMP, which should have been consistent with the
program’s PMP, contained only results from FY 2009; therefore, these indicators were no longer
being used. The PMP also was missing indicator reference sheets, which explain indicator data
sources and collection methods for each indicator. These reference sheets are particularly
important because there are many ways to count the number of beneficiaries trained or
reached.

According to PUCMM’s chief of party and mission officials, they were focused on other
implementation priorities that caused them to overlook the importance of maintaining a
complete, updated, and accurate PMP and related data.

Program Results Were Not Always Reliable or Supported. The audit identified data
weakness in the following areas.

	 PUCMM reported 859 Spanish language teachers trained during 2010 and 933 teachers
   trained during 2011. However, the supporting documentation provided showed that 870 and
   902 teachers were trained in those respective periods.

	 PUCMM reported that 15,930 second- and third-graders enrolled in Spanish language
   classes. This figure was obtained from an official database of students that was not
   scrutinized carefully to remove, for example, students who had enrolled but left before
   completing the term.

	 At the beginning of each school year, PUCMM estimated the number of teachers who would
   be trained. This estimate was later reported to USAID/Dominican Republic as the number of
   teachers trained, even though the actual number of teachers trained was available. Thus,
   PUCMM reported that 1,240 teachers were trained in math in 2012, while the program’s own
   training database showed that 1,306 teachers were trained.

	 PUCMM estimated that 65 percent of teachers improved; however, it could not provide any
   data to support this claim. The midterm evaluation concluded that PUCMM did not provide


                                                                                              4
   sufficient evidence to determine whether teacher capacity had improved. Therefore, it was
   not possible to know what percentage had improved.

	 PUCMM could not readily or completely support some results included in its quarterly
   reports. For example, PUCMM’s database of math students was updated continuously, and
   all historical data were discarded. Therefore, it was not possible to determine the results at
   the end of a specific quarter or year. Furthermore, while PUCMM maintained numerous files
   and Excel spreadsheets with names of schools and beneficiaries (principals, teachers,
   ministry technicians, parents, and students), the data were not organized to support
   reported results. Files sorted by district or school generally were not summarized in a
   manner that supported the reported results.

	 USAID/Dominican Republic did not keep documentation supporting the results reported in
   its annual PPR. Different education projects contributed to a reported result, but the mission
   could not provide support for each project’s exact contribution. Therefore, it was not possible
   to match the result reported by PUCMM with the result reported in USAID’s PPR.

	 Training data were not reported in TraiNet. Although PUCMM conducted numerous training
   courses for principals, mentors, teachers, parents, and school and ministry officials, none
   were entered in the system as required by ADS 253.3. Therefore, the mission’s training
   results were incomplete, and information related to USAID/Dominican Republic’s training
   activities, such as subject area, number of participants, and costs incurred, was not
   available for review.

The mission officials explained that while some types of training were entered in TraiNet, they
did not know they needed to include other types of training such as those given by PUCMM. In
addition, mission staff had not received training on how to use the system, and PUCMM was
unfamiliar with TraiNet as well as any requirements to report training.

Furthermore, the mission did not have a system in place to verify the results and confirm that
they were accurate or met quality standards. Despite the USAID requirement to have DQAs,
one of five required and conducted was missing. Additionally, the four others did not identify any
areas for improvement even though this audit uncovered various weaknesses described above.

Site Visits Were Not Performed Regularly. USAID did not regularly perform and document
site visits to schools assisted under the program. Mission officials said visits should be
performed at least quarterly; however, during the program’s first 3 and a half years, only six site
visit reports were available, and most of the visits did not include data verification.

The officials said, the absence of the agreement officer’s representative (AOR) for nearly a year
prevented the mission from conducting more frequent site visits and more thorough data
verification.

Without proper monitoring and verification of reported results, the likelihood of not achieving
program goals increases. Without regular site visits, the mission cannot determine whether the
program is progressing as planned, or make decisions based on the current situation in the
field. Furthermore, the mission cannot approve payments properly to PUCMM if it cannot verify
accomplishments. To address these concerns, this audit makes the following recommendations.




                                                                                                 5
   Recommendation 1. We recommend that USAID/Dominican Republic work with its
   implementing partner to revise the program’s performance management plan to include
   (1) definitions for each indicator including the data source and collection methodology,
   (2) results disaggregated by gender, and (3) updated targets and actual results.

   Recommendation 2. We recommend that USAID/Dominican Republic update the
   education team’s performance management plan, and confirm that it agrees with
   indicators being reported in the program performance management plan and the
   performance plan and report.

   Recommendation 3. We recommend that USAID/Dominican Republic work with its
   implementing partner to implement an improved record-keeping system that supports
   each reported result.

   Recommendation 4. We recommend that USAID/Dominican Republic implement a site
   visit plan that includes frequent visits and data verification.

   Recommendation 5. We recommend that USAID/Dominican Republic, in conjunction
   with its implementing partner, verify in writing that all necessary training information is
   entered into USAID’s Training Results and Information Network.

   Recommendation 6. We recommend that USAID/Dominican Republic provide and
   document training to its staff on how to report results in USAID’s Training Results and
   Information Network.

Documents Related to Program Were
Missing or Outdated
ADS 202.3.6.3 states that USAID missions must adjust tactics when conditions warrant. This
may include simply modifying and changing existing programs or activities. ADS 303.3.17 states
that when a modification to the award is necessary, the AOR should prepare internal USAID
documentation that supports it.

USAID guidance also requires that missions maintain several documents to ensure that the
programs meet their objective. For example, ADS 201 requires a sustainability strategy, and
ADS 320.6 defines a branding implementation plan as one that describes how the program will
be communicated to the beneficiaries and promoted to people in host countries. A marking plan
outlines the public communications, commodities, program materials, and other items that will
visibly bear or be marked with the USAID logo.

However, in several instances described below, program documents were absent or outdated.

Program Lacked Sustainability Planning. To achieve sustainability, the agreement required
PUCMM to make sure teachers, directors, technicians, instructors, and the program's technical
team document their experiences and publicize the PUCMM teacher training model. However,
PUCMM has not developed a method for documenting the experiences learned to ensure that
the program continues after USAID’s assistance stops. PUCMM officials said they have not
done this because they thought this should take place as the program comes to its end.




                                                                                                 6
Branding and Marking Plan Was Incomplete. ADS 320.3.1 requires that “all USAID-funded
foreign assistance must be branded through the use of a ‘Branding Strategy’ and marked
through the use of a ‘Marking Plan.’” The agreement required PUCMM to create a branding and
marking plan within 30 days after the award was signed.

The plan consisted of only two pages, was not dated, did not specify who would be responsible
for tasks such as ensuring compliance, did not include key milestones for completing actions,
and did not specify the type and level of marking.

Furthermore, while PUCMM and school officials were aware of USAID’s support, parents were
not. School materials were well marked, but during our visit to one training event, we noted that
the event did not indicate that USAID sponsored it.

The AOR explained that the plan was developed in 2009, and she believed that it met USAID's
requirements at that time. However, USAID has provided more guidance since 2009 and has
examples of detailed plans from other education projects.

Agreement Modifications and Standard Provisions Were Not Documented. Since 2009 the
AOR and PUCMM agreed verbally to several changes to the program’s scope and operations.
For example:

	 The grant agreement initially required PUCMM to implement a quality management model
   for improving school administration based on the development of a new education
   management culture developed by the Ministry of Education. In 2011 PUCMM and the AOR
   agreed to adopt a different approach.

	 Some school districts that were to receive program services under the initial grant
   agreement were removed from the program.

	 Training was going to be provided to 2,000 members of education centers and/or parents’
   associations related to the quality management model, but it was eliminated.

	 The requirement for PUCMM to publish bimonthly newsletters and develop a Web page was
   eliminated from the agreement’s scope of work.

However, the mission did not revise the agreement’s scope of work or keep documentation to
show its approval for these adjustments. Furthermore, these changes resulted in lower program
costs that should have been reflected in a revised program budget.

The modifications were not documented adequately because of poor communication between
the AOR and the mission’s contracting office. Furthermore, the designated AOR was out of the
office for nearly a year starting in October 2011; although other mission staff provided program
oversight in her absence, they did not monitor the program closely.

In addition, some standard USAID provisions were not updated or added to the existing
agreement. It did not include the most recent standard provisions to require the implementer to
complete a gender analysis, upload documents to USAID’s Development Experience
Clearinghouse, or report results to TraiNet. These provisions were not added because of an
oversight by the mission’s contracting office. The only modification the mission made since the
program started related to funding increases.


                                                                                               7
The lack of adequate program documents may lead to improper implementation of the program.
In addition, the absence of some USAID requirements in the agreement results in
noncompliance by PUCMM. To address these concerns, this audit makes the following
recommendations.

   Recommendation 7. We recommend that USAID/Dominican Republic work with its
   implementing partner to implement a sustainability plan, and document the experiences
   and lessons learned during the program as required by the agreement.

   Recommendation 8. We recommend that USAID/Dominican Republic work with its
   implementing partner to update its branding and marking plan, including the use of
   banners or posters with the USAID logo during training sessions.

   Recommendation 9. We recommend that USAID/Dominican Republic modify its
   agreement to include changes to the program’s activity description and add required
   standard provisions.

Program Did Not Publicize Its
Success Stories
The mission’s outreach and communications strategy aims to “increase public awareness of
support for USAID’s assistance program in the Dominican Republic and to generate a positive
image and increased visibility of the United States and the American people.” The agreement
required PUCMM to include success stories and lessons learned in its annual reports.
PUCMM’s branding and marking plan added that the program “planned to print periodical
bulletins including success stories, beneficiary testimonials, pictures and accomplishments.”
Despite the program’s many accomplishments, success stories and lessons learned have not
been prepared and disseminated adequately.

USAID, PUCMM, and school officials repeatedly expressed their satisfaction with the program’s
accomplishments. Forty-five school principals and teachers interviewed said it has made
significant contributions to improve teacher performance, which supports improved student
performance. All of the principals and teachers interviewed said the training and mentoring
provided by the program improved their performance as well as the performance of their
colleagues.

Furthermore, student evaluations have consistently showed improved performance. The longer
teachers have been in the program, the more likely their students were to outperform their peers
who were not part of it. Many of those interviewed also shared stories about specific students
who overcame challenges. Some people we interviewed said that USAID's two previous basic
education projects were highly successful and laid the groundwork for the current program.

Despite these positive impacts, PUCMM had not documented success stories and lessons
learned as required by the agreement. PUCMM officials said the stories were written, but had
not been translated into English and thoroughly reviewed, edited, or published. PUCMM
intended to address this shortcoming by hiring a contractor to document, edit, and help publish
success stories and lessons learned. Mission officials also explained that they did not monitor
the agreement properly and overlooked this requirement. They added that the mission has not
published success stories for any of its programs recently.

                                                                                              8
Without well-publicized success stories, stakeholders may not be aware of the mission’s
contributions to basic education in the Dominican Republic. This weakness, combined with poor
communications and public relations, may have contributed to USAID’s elimination of the
education component from the mission’s portfolio. Therefore, we make the following
recommendation.

   Recommendation 10. We recommend that USAID/Dominican Republic work with its
   implementing partner to document success stories in its partner’s fiscal year 2013
   annual report.




                                                                                           9
EVALUATION OF MANAGEMENT
COMMENTS
In response to our draft report, USAID/Dominican Republic agreed with all
ten recommendations. Based on our evaluation of management comments on our draft report,
we have determined that final action has been taken on three recommendations and
management decisions have been reached on seven. Our evaluation of management
comments follows.

Recommendation 1. The mission agreed to work with PUCMM to develop a more detailed,
comprehensive PMP by December 31, 2013. Based on this planned action, we acknowledge
that a management decision has been reached on this recommendation.

Recommendation 2. The mission updated the performance plan on September 18, 2013, to
agree with the program PMP. Based on these actions, we acknowledge that a management
decision has been reached on this recommendation.

Recommendation 3. The AOR visited PUCMM’s office on July 17, 2013, and confirmed that it
was following the new procedures of maintaining historical data when data are updated.
Additionally, USAID clarified with the partner that the number of beneficiaries registered should
be reported at the end rather than at the beginning of each school year. Based on these actions,
we acknowledge that final action has been taken on this recommendation.

Recommendation 4. The mission developed a site visit plan for the period of September 2013
through March 2014. According to this plan, the AOR will conduct at least one visit per quarter.
The plan will be updated on a quarterly basis and will include data verification through actions
such as school visits. Based on these actions, we acknowledge that final action has been taken
on this recommendation.

Recommendation 5. The mission agreed to train PUCMM on proper procedures for entering all
required training data into TraiNet. The AOR will verify that all trainings have been entered into
the system and confirm in writing that all requirements have been met. This action will be
completed by March 31, 2014. Therefore, we acknowledge that a management decision has
been reached on this recommendation.

Recommendation 6. By October 31, 2013, the mission will hold an internal training course on
reporting training results in TraiNet. Based on this action, we acknowledge that a management
decision has been reached on this recommendation.

Recommendation 7. The mission will require PUCMM to prepare a sustainability plan.
Furthermore, the mission and PUCMM have hired a consultant to produce a series of reports to
document and publicize the project’s experiences and successes. These actions are expected
to be completed by March 31, 2014. Based on these actions, we acknowledge that a
management decision has been reached on this recommendation.

Recommendation 8. The mission and PUCMM have contracted a consultant to update the
branding and marking plan. The plan is being drafted and will be approved by the outreach and


                                                                                               10
communications specialist and the AOR by the end of February 2014. Based on these actions,
we acknowledge that a management decision has been reached on this recommendation.

Recommendation 9. On June 11, 2013, the agreement with PUCMM was modified to include
changes in the program description and the required applicable updated standard provisions.
Further revisions to the provisions, per an agency notice dated August 22, 2013, will be included
in an upcoming modification. Based on these actions, we acknowledge that final action has
been taken on this recommendation.

Recommendation 10. The mission has requested PUCMM to include success stories in its
FY 2013 report. This action will be completed by the end of November 2013. Based on these
actions, we acknowledge that a management decision has been reached on this
recommendation.




                                                                                              11
                                                                                      Appendix I



SCOPE AND METHODOLOGY
Scope
RIG/San Salvador conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions in accordance with our audit objective. We believe that the evidence obtained
provides that reasonable basis.

The purpose of the audit was to determine whether USAID/Dominican Republic was achieving
its main goal of significantly contributing to the improvement of the quality of primary school
education.

USAID/Dominican Republic’s Effective Schools Program has a total estimated cost of
$16.7 million. It started on October 1, 2009, and ends on September 30, 2014. As of March 31,
2013, the mission had obligated $11.4 million and disbursed $9.7 million for program activities.
This represents the amount tested as part of this performance audit.

The audit fieldwork was conducted at USAID/Dominican Republic, PUCMM’s office in Santiago,
and at schools in four districts targeted by the program (La Vega/Jarabacoa, Puerto Plata,
Santiago, and Santo Domingo) from April 15 through May 3, 2013. We interviewed key staff
members from the mission and PUCMM, as well as various government and school officials.

As part of the audit, we assessed the significant internal controls the mission used to monitor
the program. The assessment included controls to determine whether the mission (1) conducted
and documented site visits to evaluate progress and monitor quality, (2) reviewed and approved
required deliverables, (3) reviewed and tested indicator targets and results, and (4) performed
DQAs and portfolio reviews. Additionally, we reviewed the mission’s annual certification required
by the Federal Managers’ Financial Integrity Act of 1982, 31 U.S. Code 3512 to verify whether
the assessment cited any relevant weaknesses. We reviewed prior audit reports in the
education area for any issues related to the audit objective.

Methodology
To answer the audit objective, we evaluated the mission’s management and oversight of the
programs, the performance of PUCMM, and the effectiveness of the activities. We met with
various USAID/Dominican Republic officials including the AOR, the education office director,
and the M&E specialist. We held numerous meetings with PUCMM employees, including the
chief of party, component managers, and mentors. We met with project beneficiaries including
ministry officials, principals, and teachers.

To gain an understanding of the program, the audit team reviewed the mission’s cooperative
agreement and associated modifications, the PMP, the operational plan, the PPR, DQAs, site
visit reports, and portfolio review results. We also reviewed PUCMM’s work plans, progress
reports, branding and marking plan, training records, and other documents that support the
program and results reported to USAID. We reviewed applicable policies and procedures



                                                                                              12
                                                                                       Appendix I


pertaining to USAID/Dominican Republic’s implementation of the program, such as ADS and
selected mission orders.

We used a judgmental sample rather than a statistical sample, because a statistical sample
would have required more time and a larger budget for traveling around the Dominican
Republic. Therefore, we judgmentally selected seven schools to conduct field visits in addition
to three schools selected by PUCMM. The sample selection was based on an analysis of
relevant factors, including teacher availability, accessibility, and travel time and cost. Because
we did not use a statistical sample, the sample results cannot be projected to the entire
population.




                                                                                               13
                                                                                    Appendix II



MANAGEMENT COMMENTS 



                                                        UNITED STATES GOVERNMENT 



                                                                           MEMORANDUM

 Date:         September 19, 2013
 To:           Jon Chasson, Regional Inspector General/San Salvador
 From:         Alexandria L. Panehal, Mission Director /s/
 Through:      Marina Taveras, AOR/AAO (Audit Action Officer) /s/
 Subject:      Mission Comments on Performance Audit Draft Report of
               USAID/Dominican Republic’s Effective Schools Program.


On August 28, 2013 RIG/San Salvador issued its draft audit report of the USAID/Dominican
Republic’s Effective Schools Program and requested the Mission provide its review and
comments. The draft report included ten recommendations, listed below, which the Mission
wishes to respond to in the following manner:

Recommendation 1. We recommend that USAID/Dominican Republic work with its
implementing partner to revise the Program’s performance management plan to include (1)
definitions for each indicator including the data source and collection methodology, (2) results
disaggregated by gender, and (3) updated targets and actual results.

Mission comments - USAID/DR agrees with the recommendation. The Education Office and
the implementing partner have been working closely to have a more detailed and
comprehensive performance management plan (PMP) in place which will address this
recommendation. The revised plan is expected to be completed by December 31, 2013.

Recommendation 2. We recommend that USAID/Dominican Republic update the education
team’s performance management plan, and confirm that it agrees with indicators being reported
in the program performance management plan and the performance plan and report.

Mission comments - USAID/DR agrees with the recommendation. The Education Team’s
performance management plan was updated on September 18, 2013, in coordination with the
Program Office. The Program Office confirms that the revised Education Team PMP agrees
with program PMP and includes appropriate indicators to be reported in the FY 2013
Performance Plan and Report.        USAID/DR recommends that this recommendation be
considered closed and not be included in the final audit report.



                                                                                             14
                                                                                        Appendix II


Recommendation 3. We recommend that USAID/Dominican Republic work with its
implementing partner to implement an improved record-keeping system that supports each
reported result.

Mission comments - USAID/DR agrees with this recommendation. The implementing partner
has agreed to keep historical data when the data is updated. On July 17, 2013, the AOR visited
the Project’s office in Santiago and confirmed that this new procedure is being followed.
USAID/DR also clarified with PUCMM that the project results are required to be reported at the
end of each ach fiscal year (the project was reporting the data it had available at the beginning
of each school year, which starts in mid-August). USAID/DR and PUCMM agreed that they will
report the number of beneficiaries registered at the end of each school year (June). Based on
adoption of these new agreed-upon procedures, USAID/DR recommends that this
recommendation be considered closed and not to be included in the final audit report.

Recommendation 4. We recommend that USAID/Dominican Republic implement a site visit
plan that includes frequent visits and data verification.

Mission comments - USAID/DR agrees with the recommendation. The Education Office
developed and submitted to the Program Office a site visit plan for the period of September
2013 through March 2014, with at least one visit per quarter. The site visit plan will be updated
on a quarterly basis. Site visits planned include data verification through actions such as visits
with participating schools. USAID/DR requests that this recommendation be closed and not to
be included in the final audit report.

Recommendation 5. We recommend that USAID/Dominican Republic, in conjunction with its
implementing partner, verify in writing that all necessary training information is entered into
USAID’s Training Results and Information Network.

Mission comments – USAID/DR agrees with the recommendation. USAID/DR’s Participant
Training Specialist will train the implementing partner on proper procedures for entering all
trainings funded by the project into USAID’s Training Results and Information Network (TraiNet).
Once PUCMM completes data entry, the Participant Training Specialist will generate a report to
allow the AOR to verify that trainings have been entered into the system, as required, and
confirm in writing to the Participant Training Specialist that all requirements have been met. It is
expected that this action will be completed by March 31, 2014.

Recommendation 6. We recommend that USAID/Dominican Republic provide and document
training to its staff on how to report results in USAID’s Training Results and Information
Network.

Mission comments – USAID/DR agrees with the recommendation. Although USAID/DR’s
Participant Training Specialist is already trained on the procedures to report results in TraiNet,
there are opportunities to improve AORs’ and CORs’ knowledge of this requirement as well. The
Program Office will hold an internal training with all AORs and CORs. Their participation will be
confirmed through a sign-in sheet, which will be kept on file in the Program Office. We expect
this action to be completed by October 31, 2013.

Recommendation 7.         We recommend that USAID/Dominican Republic work with its
implementing partner to implement a sustainability plan and document the experiences and
lessons learned during the program as required by the Agreement


                                                                                                 15
                                                                                       Appendix II


Mission comments – USAID/DR agrees with this recommendation. USAID/DR will request that
the implementing partner prepare a sustainability plan. USAID/DR and the implementing
partner contracted a consultant that will produce a series of reports that will document and
publicize the project’s experience and successes. These actions are expected to be completed
by March 31, 2014.

Recommendation 8.        We recommend that USAID/Dominican Republic work with its
implementing partner to update its branding and marking plan, including the use of banners or
posters with the USAID logo during training sessions.

Mission comments – USAID/DR agrees with the recommendation. The consultant mentioned
above will also be updating the Branding and Marking Plan. This plan is being drafted and will
be approved by USAID/DR’s Outreach and Communications Specialist and the AOR.
USAID/DR will make sure that this plan includes the use of banners posted during training
sessions. This action will be completed by the end of February 2014.

Recommendation 9. We recommend that USAID/Dominican Republic modify its agreement to
include changes to the program’s activity description and add required standard provisions.

Mission comments – USAID/DR agrees with this recommendation. On June 11, 2013 the
agreement with PUCMM was modified to include changes in the program description and added
the required applicable updated standard provisions (see attachment). Further revisions to the
provisions, per Agency Notice dated August 22, 2013, will be included in an upcoming
modification. USAID/DR recommends that this recommendation be considered closed and not
be included in the final audit report.

Recommendation 10. We recommend that USAID/Dominican Republic work with its
implementing partner to document success stories in its partner’s fiscal year 2013 annual report.

Mission comments – USAID/DR agrees with this recommendation. USAID/DR has requested
PUCMM to include success stories in its fiscal year 2013 report. This action will be completed
by the end of November 2013.

USAID/DR also acknowledges the auditors’ observation in the Summary of Results that “the
program might have been more successful if the various components were integrated better”.
USAID/DR previously shared these same observations from the USAID/DR Mid-Term
Performance Evaluation of the Education Portfolio with PUCMM and will follow up in writing to
PUCMM about integrating program components by October, 2013.

We appreciate the RIG’s consideration of the Mission’s comments on these recommendations
and look forward to receiving the final audit report. Please let us know if you need any additional
information.




                                                                                                16
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           http://oig.usaid.gov
